Washington, D.C. 20530

September 9, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Ronald Lynn Thomas v. United States of America,
S.Ct. No. 20-5090

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 13, 2020. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on September 16, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 16, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5090
THOMAS, RONALD LYNN
USA

KEVIN JOEL PAGE
ASSISTANT FEDERAL PUBLIC DEFENDER
525 GRIFFIN STREET
SUITE 629
DALLAS, TX 75202
214-767-2746
JOEL_PAGE@FD.ORG

